HHS/OIG, Audit -"Audit of the Medicaid Drug Rebate Program In Idaho,"(A-10-03-00008)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of the Medicaid Drug Rebate Program In Idaho," (A-10-03-00008)
October 20, 2003
Complete
Text of Report is available in PDF format (929 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to evaluate whether the State of Idaho Department of Health and Welfare (the State Agency)
had established adequate accountability and internal controls over the Medicaid drug rebate program.  We found that
although the State Agency had policies and procedures for the drug rebate program, it did not revise the policies and procedures
to reflect current practices.  In addition, the State Agency had not established adequate internal controls over the
Medicaid drug rebate program as required by 45 Code of Federal Regulations (CFR) Part 74.21.  As a result, the State
Agency did not properly report drug rebate information to the Centers for Medicare & Medicaid Services (CMS).  We
identified weaknesses in the following areas: (1) quarterly reporting, (2) accounts receivable system, (3) adjustments,
dismissals and write-offs, (4) segregation of duties, and (5) dispute resolution.  Federal regulations require effective
control and accountability for all funds, property, and other assets.  As a result, the State Agency did not maintain
adequate policies, procedures, and internal controls to account for drug rebate program transactions.  The State Agency
believed the reports filed to CMS regarding drug rebate receivables were accurate and that it reconciles the ending balance
of uncollected rebates to the receivable account.  It also believed the present general ledger system was adequate.  The
State Agency generally concurred with the remaining findings and recommendations.